<html>
<title> - THE FINDINGS AND RECOMMENDATIONS OF THE COMMISSION ON SAFETY AND ABUSE IN AMERICA'S PRISONS</title>
<body><pre>[Senate Hearing 109-608]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-608
 
THE FINDINGS AND RECOMMENDATIONS OF THE COMMISSION ON SAFETY AND ABUSE 
                          IN AMERICA'S PRISONS

=======================================================================

                                HEARING

                               before the

             SUBCOMMITTEE ON CORRECTIONS AND REHABILITATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              June 8, 2006

                               __________

                          Serial No. J-109-83

                               __________

         Printed for the use of the Committee on the Judiciary




                    U.S. GOVERNMENT PRINTING OFFICE
30-255                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

             Subcommittee on Corrections and Rehabilitation

                     TOM COBURN, Oklahoma, Chairman
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
JEFF SESSIONS, Alabama               PATRICK J. LEAHY, Vermont
JOHN CORNYN, Texas                   JOSEPH R. BIDEN, Jr., Delaware
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
                  Mary Chesser, Majority Chief Counsel
                  Mark Keam, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coburn, Hon. Tom, a U.S. Senator from the State of Oklahoma......     1
Durbin, Hon. Richard J. a U.S. Senator from the State of Utah....     2
    prepared statement...........................................    51
Feingold, Hon. Russell D. Feingold, a U.S. Senator from the State 
  of Wisconsin, prepared statement...............................    53
Leahy, Hon. Patrick J., a U.S. Senator from State of Vermont, 
  prepared statement.............................................    72

                               WITNESSES

Gibbons, John J., Commission Co-Chairman, and former Chief Judge, 
  U.S. Court of Appeals for the Third Circuit, Newark, New Jersey    12
Katzenbach, Nicholas de B., Commission Co-Chairman, and former 
  U.S. Attorney General, Princeton, New Jersey...................     7
Maynard, Gary D., Commissioner, and Director, Iowa Department of 
  Corrections, and President-Elect, American Correctional 
  Association, Des Moines, Iowa..................................    10
Morial, Marc H., Commissioner, and President and Chief Executive 
  Officer, National Urban League, former Mayor of New Orleans, 
  and former Louisiana State Senator, New York, New York.........     5
Nolan, Pat, Commissioner, and President, Prison Fellowship's 
  Justice Fellowship, and Member, Prison Rape Elimination 
  Commission, Lansdowne, Virginia................................     8

                         QUESTIONS AND ANSWERS

Responses of Nicholas Katzenbach to questions submitted by 
  Senator Coburn.................................................    24
Responses of John J. Gibbons to questions submitted by Senator 
  Coburn.........................................................    28
Responses of Gary Maynard to questions submitted by Senator 
  Coburn.........................................................    33
Responses of Marc Morial to questions submitted by Senator Coburn    38
Responses of Pat Nolan to questions submitted by Senator Coburn..    40
Responses of John J. Gibbons, Nicholas Katzenbach, Gary Maynard, 
  Marc Morial, and Pat Nolan to questions submitted by Senator 
  Feingold.......................................................    42
Responses of Gary Maynard and Pat Nolan to questions submitted by 
  Senator Kennedy................................................    47

                       SUBMISSIONS FOR THE RECORD

Gibbons, John J., Commission Co-Chairman, and former Chief Judge, 
  U.S. Court of Appeals for the Third Circuit, Newark, New 
  Jersey, statement..............................................    54
Horn, Martin F., Commissioner, New York City Department of 
  Correction, New York, New York, statement and attachments......    56
Katzenbach, Nicholas de B., Commission Co-Chairman, and former 
  U.S. Attorney General, Princeton, New Jersey, statement........    70
Maynard, Gary D., Commissioner, and Director, Iowa Department of 
  Corrections, and President-Elect, American Correctional 
  Association, Des Moines, Iowa, statement.......................    74
Morial, Marc H., Commissioner, and President and Chief Executive 
  Officer, National Urban League, former Mayor of New Orleans, 
  and former Louisiana State Senator, New York, New York, 
  statement......................................................    76
New York Post, David Seifman, December 21, 2004, article.........    78
New York Times, Paul von Zielbauer, August 22, 2003, article.....    79
Nolan, Pat, Commissioner, and President, Prison Fellowship's 
  Justice Fellowship, and Member, Prison Rape Elimination 
  Commission, Lansdowne, Virginia, statement.....................    80


THE FINDINGS AND RECOMMENDATIONS OF THE COMMISSION ON SAFETY AND ABUSE 
                          IN AMERICA'S PRISONS

                              ----------                              TH
URSDAY, JUNE 8, 2006

                               U.S. Senate,
    Subcommittee on Corrections and Rehabilitation,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 3:01 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Tom Coburn, 
Chairman of the Subcommittee, presiding.
    Present: Senators Coburn and Durbin.

 OPENING STATEMENT OF HON. TOM COBURN, A U.S. SENATOR FROM THE 
                       STATE OF OKLAHOMA

    Chairman Coburn. The Committee will come to order. We do 
have one more vote, and what we will do is I am going to start 
with an opening statement. Senator Durbin is still on the 
floor. What I will do is adjourn the hearing after my opening 
statement. We will have gotten that out of the way. When we 
finish this next vote, which is supposed to be at 3:15, then we 
will get rolling.
    First of all, I want to thank all our witnesses for being 
here and testifying and the effort that they have put forward. 
I will not read my statement into the record but, rather, make 
it a part of it.
    As a practicing physician, one of the things that I know is 
what happens in prison affects all of us. It affects us on the 
outside because the vast majority of people that experience 
incarceration are back among us. And if that is a positive 
process, it is great. If it is a negative process, it is 
terrible. And so the idea that we have a discussion about what 
is good and what is bad is very important for this country.
    The second thing I know is that this country has to make a 
major change in how it treats drug-addicted felons, non-
violent. The fact is we know with good treatment two out of 
every three people who go through a good, qualified drug 
treatment program will be free and stay free of dependency. 
That is not a strong characteristic of many of our prisons 
today throughout the country, and it is something that, if we 
really want to make a difference in people's lives, we have to 
address.
    Another wonderful thing about that is when we do that, we 
each save ourselves money because the cost of drug treatment 
and incarceration, separate from regular incarceration, is 
about one-half to two-thirds the cost of regular incarceration. 
So it is my hope that this is the start of a discussion.
    I am very appreciative to the Commission for their hard 
work. We are not going to take everything at face value. We are 
going to look at this hard. And I know Senator Durbin is of the 
same mind to look at it and to make recommendations. This will 
not be the only hearing that we will have on this subject, and 
I am sorry that we are having a hearing at this late date. But 
it is, nevertheless, very important, with 2 million people 
incarcerated in this country. Some of them are our family 
members. Some of them are people that we love. Some are people 
that we know of. Some made bad choices. Some continue to make 
bad choices.
    The final thing I would say is mental health and mental 
illness is a significant component of a large number of people 
in our prison system today. Mental health parity outside of 
prison is something that has to happen in this country because 
I believe we could forego lots of the incarcerations if, in 
fact, we treated mental health illness as we treat every other 
illness in this country. So I am a strong advocate of that, and 
I believe that we can accomplish a lot in terms of prevention 
in the future for those that could be incarcerated, as well as 
better, more up-to-date scientific treatment for those that are 
incarcerated today.
    With that, I will end my statement. Have they called the 
vote? They have not, have they? And I would ask your 
forbearance until Senator Durbin gets here. This just happened 
today. I apologize. I know there are a lot of people in the 
room, but I think we have to hold up. I do not want your 
statements prior to Senator Durbin being here, if you would. 
And we will adjourn until after the 3:15 vote. So relax.
    [Recess 3:05 p.m. to 3:10 p.m.]
    Chairman Coburn. The Committee will reconvene. It gives me 
great pleasure to recognize my co-Chairman on this 
Subcommittee, Senator Durbin from Illinois. I have made an 
opening statement. I would recognize you at this time.

 STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Durbin. Thank you very much, Mr. Chairman, and it 
is an honor to be a co-Chairman, which does not happen often 
around here. I am honored that you would give me that 
opportunity.
    I am pleased to have this opportunity to work with you on 
the Corrections and Rehabilitation Subcommittee. This is a 
first for this Subcommittee and this Congress. It is an 
important hearing about a subject we rarely discuss on Capitol 
Hill. Most of us in Congress and most Americans do not spend a 
lot of time thinking about the conditions in the prisons across 
our Nation, but we should. We should because, in the words of 
the Commission on Safety and Abuse in America's Prisons, ``What 
happens inside jails and prisons does not stay inside jails and 
prisons. The conditions in our jails and prisons directly 
affect millions of Americans who are incarcerated or work in 
the corrections system. They are also indirectly affecting 
family members, relatives, and friends. They affect the public 
safety and the public health of America.''
    As the Russian author Fyodor Dostoyevsky once reflected, 
``The degree of civilization in a society can be judged by 
entering its prisons.''
    I would like to welcome the members of the Commission who 
will be presenting their report at this hearing. It reminds us 
that we need to judge our civilization from time to time--and 
this Commission did so--by entering our prison system. The 
Commission spent a year listening to experts across the Nation 
and from all viewpoints, covering many aspects of this complex 
world of corrections. Now they have laid down a challenge to 
all of us: to take a hard look at what is going on in our 
prisons.
    Most of us take the trash out and put it in the alley. I do 
at my home in Springfield. I do not want to know what happens 
from that point. I just want to know that after the truck 
leaves, the cans are empty and ready for more. We have to view 
our prison and incarceration system much differently. People 
who are removed from our neighborhoods and our towns and 
society because of wrongdoing are coming back. Most of them 
will return. And what will they return to? Will they return to 
a productive and different life or to the same mistakes that 
led to their initial incarceration?
    Some say that part of the punishment is to deny them the 
most basics--whether it is education, mental health counseling, 
whatever it may be--efforts to remove their addictions. And yet 
we know that if we do not deal with some of these fundamentals, 
they are likely to return to prison. But something else is 
likely to occur, too. There is likely to be another crime 
committed before that happens, another victim before that 
happens. And so it is penny-wise and pound-foolish not to 
really look at those in prison as people likely to someday be 
free and likely to someday be in our neighborhoods and towns 
again.
    I am glad Illinois has made prison reform a high priority. 
I want to thank our Governor, Rod Blagojevich, for several 
innovative programs that he started, such as the creation of 
the Model Meth Prison and Reentry Program. We could spend a 
whole hearing on meth and what it means to my State and what it 
means in terms of incarceration. This new unit, which is going 
to be funded from Federal and State sources, is modeled after 
other successful programs and many other innovations.
    Mr. Chairman, in the interest of time, because the 
witnesses have been patient, I would like to ask that the 
remainder of my statement be made a matter of record.
    Chairman Coburn. Without objection. Thank you, Senator 
Durbin.
    [The prepared statement of Senator Durbin appears as a 
submission for the record.]
    Chairman Coburn. Let me introduce our panelists, if I 
might. The Honorable John Gibbons is Director of Gibbons, Del 
Deo, Dolan, Griffinger & Vecchione, a member of the firm's 
litigation department and head of its alternative dispute 
resolution group and founder of the Gibbons Fellowship in 
Public Interest and Constitutional Law. He was formerly Chief 
Judge of the U.S. Court of Appeals, Third Circuit, and a member 
of that court for 20 years. He has authored approximately 800 
published opinions. He was also formerly a professor of 
constitutional law and other subjects at Seton Hall University 
Law School. He is Past President of the New Jersey State Bar 
Association, a life member of the American Law Institute, and a 
fellow of the American Bar Association. He is a former member 
of the House of Delegates of the American Bar Association and 
former Chair of its Committee on Fair Trial and Free Press, and 
also a former Director of the American Arbitration Association. 
He is also Trustee Emeritus of the Practicing Law Institute, a 
Trustee Emeritus of Holy Cross College, and a Trustee of the 
Fund for New Jersey. Welcome.
    Nicholas Katzenbach we have known for a long time. A 
distinguished career of public service began when he joined the 
United States Army Air Force. During the Second World War, he 
was captured by enemy troops and spent 2 years as a prisoner of 
war in Italy and Germany. After the war, he attended Princeton 
University and then Yale Law School, becoming editor-in-chief 
of the Yale Law Journal. He also received a Rhodes scholarship 
and studied at Oxford University for 2 years. Early in his 
legal career, he was Associate Professor of Law at Yale 
University and also Professor of Law at the University of 
Chicago. He joined the U.S. Justice Department's Office of 
Legal Counsel and was promoted to Deputy Attorney General in 
April 1962. In that role, and working closely with President 
Kennedy, he was responsible for securing the release of 
prisoners captured during the Bay of Pigs raid on Cuba. He also 
oversaw the Justice Department's efforts to desegregate the 
University of Mississippi in September 1962 and the University 
of Alabama in June 1963, and worked with Congress to ensure the 
passage of the 1964 civil rights legislation. President Johnson 
appointed him Attorney General of the United States in 1965, 
and he helped to draft the 1965 Voting Rights Act. He then 
appointed him Under Secretary of State and one of a three-
member commission charged with reviewing Central Intelligence 
activities. He also chaired the 1967 Commission on Crime in the 
United States. After President Johnson decided not to run for 
re- election, Mr. Katzenbach became General Counsel of the IBM 
Corporation, where he remained until 1986. He is currently Non-
Executive Chairman of the MCI Board of Directors.
    Gary Maynard I am familiar with. I appreciate him being 
here. He is an Oklahoma native. He is Director of the Iowa 
Department of Corrections and President-Elect of the American 
Correctional Association. He has worked for more than 34 years 
in the field of corrections, beginning his career as a 
psychologist in El Reno Federal Reformatory in Oklahoma. Before 
assuming his position in Iowa, Gary Maynard held similar 
positions in the Oklahoma, Arkansas, and South Carolina 
corrections systems. He received the Courage and Valor Award 
from the Oklahoma Department of Corrections and the Roy Wilkens 
Award from the NAACP. For 32 years, he was a member of the Army 
National Guard, retiring as Brigadier General. In the course of 
his service, he received the Legion of Merit from the United 
States Army and is a member of the Hall of Fame of the U.S. 
Army Artillery and Missile Officer Candidate School in Fort 
Sill, Oklahoma. He has a master's in psychology from Oklahoma 
State University. I am an alumnus of that university as well.
    Mr. Marc Morial is President and CEO of the National Urban 
League, a position he has held since May 2003. Before becoming 
head of the Urban League, he served two distinguished 4-year 
terms as the mayor of New Orleans, becoming one of the most 
popular and effective mayors in the city's history. Under his 
leadership, crime plummeted by 60 percent, the police 
department was reformed, new programs for youth were begun, and 
stagnant economy was re- energized. During that time, he also 
served as President of the United States Conference of Mayors 
in 2001 and 2002. Prior to becoming mayor of New Orleans, he 
served for 2 years in the Louisiana State Senate, where he was 
recognized as ``Conservationist Senator of the Year,'' 
``Education Senator of the Year,'' and ``Legislative Rookie of 
the Year''--that is not an honor I am going to get here, I 
don't think--for his outstanding accomplishments.
    [Laughter.]
    Chairman Coburn. He has a J.D. from Georgetown University 
Law Center and an Honorary Doctor of Laws degree from Xavier 
University.
    Pat Nolan is a friend, well-known to me for a long time. He 
is President of Justice Fellowship, the reform- oriented 
criminal justice arm of Prison Fellowship Ministries. He is the 
author of ``When Prisoners Return,'' which describes the 
important role the church can play in helping prisoners get 
back on their feet after they are released. His opinion pieces 
have appeared in numerous periodicals, including the Los 
Angeles Times, the National Law Journal, and the Washington 
Times. He is a much sought after speaker on issues of justice 
and faith. He was selected by Governor Geringer of Wyoming to 
be the speaker at his annual prayer breakfast in 2002, and he 
has testified on several occasions before Congressional 
committees on prison work programs, juvenile justice, and 
religious freedom. Earlier in his life, Pat spent 15 years in 
the California State Assembly, 4 of those as the Assembly 
Republican Leader. He was a leader on crime issues, 
particularly on behalf of victims' rights, and was an original 
cosponsor of the Victims' Bill of Rights. He was given the 
Victims Advocate Award by Parents of Murdered Children and 
named Legislator of the Year in part for his work on behalf of 
Vietnam veterans. Then as part of an FBI sting operation, he 
was prosecuted for a campaign contribution he received and pled 
guilty to one count of racketeering. He served 25 months in 
Federal prison and 4 months in a halfway house, and that 
experience changed the course of his life work forever.
    Let me welcome you all, and do you have an order that you 
want to talk? I think, Marc Morial, I would love--since you 
have a time constraint, I believe if we would allow you to go 
first, and then followed by Attorney General Katzenbach. We 
just want to accommodate you to make sure that you make that 
flight.
    Mr. Morial. Train.
    Chairman Coburn. Train.
    Mr. Morial. Go Amtrak.

 STATEMENT OF MARC H. MORIAL, COMMISSIONER, AND PRESIDENT AND 
CHIEF EXECUTIVE OFFICER, NATIONAL URBAN LEAGUE, FORMER MAYOR OF 
NEW ORLEANS, AND FORMER LOUISIANA STATE SENATOR, NEW YORK, NEW 
                              YORK

    Mr. Morial. First of all, let me thank you.
    Chairman Coburn. Is your mike on, Mr. Morial? Punch the 
button on it. Is it on? OK. There we go.
    Mr. Morial. Let me thank you, Chairman Coburn and Senator 
Durbin. I want to thank you for the opportunity to testify 
today, and it has been a great pleasure to be a part of this 
very important process.
    Corrections is a tough profession and a poorly understood 
one. Corrections officers often work long shifts in tense, 
overcrowded facilities, without enough backup, support, or 
training--stressful conditions that take a toll on them 
personally as well as professionally. Many wardens run aging, 
understaffed, and outdated facilities and deal with a work 
force which experienced officers are likely to leave the 
profession for better paying, less stressful jobs just when 
they are ready to become good mentors to new recruits. And 
those who manage entire systems deal with ever-growing numbers 
of prisoners, comparatively fewer resources, and, indeed, for 
all of their hard work, corrections professionals receive very 
little positive recognition.
    These pressures on the labor and leadership of our prisons 
and jails cause stress, injury, and illness among the work 
force and contribute to a dangerous, very dangerous culture 
inside. Because the exercise of power is an important part of 
the job of a corrections officer, it is natural that in 
situations where officers are under stress, inexperienced, and 
undertrained they will be more inclined to abuse that power. In 
facilities where the culture has devolved, rules are not 
enforced, prisoner-on-prisoner violence is tolerated, and 
antagonistic relationships between prisoners and officers often 
erupt into overt hostility and physical violence. In many 
places, this kind of tension is exacerbated by racial and 
cultural differences between prisoners and the staff. This 
conflict and violence not only harms staff and prisoners, but 
the families and communities that officers and prisoners return 
home to as well.
    In the 1960's, my home State of Louisiana, by the State 
Department of Corrections' own admission, gained a reputation 
for running ``America's bloodiest prison,'' Angola, the maximum 
security prison in Louisiana. I do not know which prison today 
carries that distinction, but I can say with some confidence 
that it is no longer Angola State Penitentiary in Louisiana. 
Reforms there began decades ago, but the most dramatic changes 
were accomplished over the course of the last 10 years when the 
fundamental institutional culture of the prison was profoundly 
transformed. Prisoners at Angola are treated with dignity and 
respect by everyone who works in that facility, and the 
prisoners are equally expected to treat staff that way. 
Prisoners have been given hope through education and morally 
centered programming and responsibility through meaningful 
employment. And the fair and reliable enforcement of the rules 
for both prisoners and staff means--and I underscore this--less 
violence. Prisons that add punishment on top of the sentence--
those that are run in ways that stamp out hope and kill the 
spirit of people--will be violent places. In contrast, prisons 
that reward the best in those who are incarcerated, 
institutions that treat prisoners with basic human dignity and 
respect, are much more likely to be places where violence and 
abuse are the rare exception and not the rule.
    Institutional ``culture change'' may sound like a soft 
approach to combating violence behind bars, but this Commission 
heard overwhelmingly that when one changes the culture, one 
changes the entire institution. There are clear, concrete steps 
that every institution can take, and many are taking them, to 
create a safer environment for both prisoners and staff. 
Congress can support the National Institute of Corrections, 
Institutional Culture Initiative that is currently providing 
prison and jail managers with tools and training to change the 
culture of their institutions. But the NIC cannot do it alone. 
Managers and wardens need support at the local, State, and 
Federal level to be able to make change over time, and they 
need the resources to hire a qualified and diverse staff. 
Officers need training that emphasizes ways to resolve conflict 
without force and communication skills--particularly the 
ability to communicate across cultural, racial, and now 
language differences, which are so common in many facilities 
across this Nation.
    These are just some of the very important recommendations 
of this Commission. I hope that today's hearing does not 
represent the end of this Commission's work or the end of this 
Congress' attention to this matter but, rather, the beginning 
as we talk about and we seek to find ways to advance the 
important recommendations contained in this report.
    Thank you.
    [The prepared statement of Mr. Morial appears as a 
submission for the record.]
    Chairman Coburn. Thank you, Mr. Morial.
    General Katzenbach?

STATEMENT OF NICHOLAS DE B. KATZENBACH, COMMISSION CO-CHAIRMAN, 
    AND FORMER U.S. ATTORNEY GENERAL, PRINCETON, NEW JERSEY

    Mr. Katzenbach. Mr. Chairman, Senator Durbin, it is a real 
pleasure to be back before this Committee after all these 
years. Although its personnel has changed, it is a wonderful 
Committee.
    I would not want you to think that my interest in prisons 
is new. As Attorney General I brought before this Committee 
proposals later enacted into law to ease prisoner reentry into 
society and got bipartisan support for their enactment. Indeed, 
I remember perhaps the strongest advocate for the attention to 
the problems of prisons at that time and to their personnel was 
a conservative Republican from Nebraska, Senator Roman Hruska. 
It was not then a partisan issue, and in my view it need not be 
today. My co-Chair--Judge John Gibbons, a lifelong Republican--
agrees.
    My own interest did not begin with my time in the Justice 
Department. During World War II, I spent 27 months in Italian 
and German prison camps, and while that experience is very 
different from being in prison as a result of criminal 
activities and convictions, there are some similarities. You 
know, until one really experiences it, I think it is hard to 
appreciate what the loss of freedom entails: boredom, 
frustration, the tedium of idleness, the fear of the unknown 
that one cannot control. Most importantly, the need for 
enforceable standards and independent oversight of prison 
conditions--in that case through the Geneva Convention and the 
Swiss Government--cannot be overstated.
    When I was in the Department and chaired the Crime 
Commission, there were about 200,000 persons in prison. Now 
there are more than 10 times that many, and that is just on any 
given day. Over the course of a year, the number of Americans 
who spend some time in jail or prison exceeds 13.5 million. We 
spend more than $60 billion annually on corrections, but 
problems of public safety and public health persist.
    The Commission chose to focus on problems of safety and 
abuse, both within prisons--the safety of both prison officials 
and prisoners and the abuse of prisoners by guards and by other 
prisoners--and outside prisons, especially in the surrounding 
communities where prison officials live and those communities 
to which prisoners return. When people live and work in 
facilities that are unsafe, unhealthy, unproductive, or 
inhumane, they carry those effects home with them.
    Over the past year, we investigated these problems by 
listening to corrections officials, criminal justice experts, 
medical experts, lawyers who litigate for improved conditions, 
court-appointed monitors, and prisoners themselves. We found a 
surprising amount of agreement among these groups as to the 
nature of the problems and as to how they might be solved. For 
all the hard work of corrections officials--most of which the 
public never hears about--there is still too much violence in 
prisons and jails, far too little medical care, a culture which 
too often pits officers against prisoners and prisoners against 
each other, and far too little support for the men and women 
who work in the tiers and pods and for those who run facilities 
and entire systems.
    It is not only wrong, but it is incredibly shortsighted not 
to talk honestly about what is going on behind bars and whether 
our approach to incarceration serves our country's best 
interests. Our failure to do so puts at ever- increasing danger 
the health, safety, and well-being of all of us.
    What has personally given me the greatest pleasure and 
satisfaction has been the fact that a Commission of 20 persons 
from differing backgrounds, experiences, and political 
preferences could agree on so many recommendations to deal with 
problems of safety and health and fair treatment. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Katzenbach. appears as a 
submission for the record.]
    Chairman Coburn. Thank you, General. Pat?
    Mr. Nolan?

  STATEMENT OF PAT NOLAN, COMMISSIONER, AND PRESIDENT, PRISON 
   FELLOWSHIP'S JUSTICE FELLOWSHIP, AND MEMBER, PRISON RAPE 
          ELIMINATION COMMISSION, LANSDOWNE, VIRGINIA

    Mr. Nolan. Good afternoon, Mr. Chairman and Senator Durbin.
    Chairman Coburn. Good afternoon. Your mike is not on. Would 
you mind punching that little button? There we go.
    Mr. Nolan. Good afternoon, Mr. Chairman and Senator Durbin. 
I am Vice President of Prison Fellowship and the President of 
their criminal justice reform arm, Justice Fellowship. In 
addition to serving on this Commission, I am also Speaker 
Hastert's appointee to the Prison Rape Elimination Commission.
    I bring a unique background to this work. As the Chairman 
mentioned, I served for 15 years as a member of the California 
State Assembly, 4 of those as Assembly Republican Leader. I was 
prosecuted for a campaign contribution that I accepted, which 
turned out to be part of an FBI sting. I pleaded guilty to one 
count of racketeering and served 29 months in Federal custody.
    The best way to describe being imprisoned is that I felt 
like an amputee. I was cutoff from my friends, my family, my 
work, my church, and my community. And then, with my stumps 
still bleeding, I was tossed into a roiling cauldron of anger, 
bitterness, despair, and often violence.
    In prison, inmates are completely defenseless. They are 
deprived of the usual ways we protect ourselves. They do not 
choose here to sleep or live, they have no choice of their 
companions, they cannot avoid going in dark places, and they 
are prohibited from arming themselves for self- defense.
    Because prisoners are deprived of the ability to defend 
themselves, the Government has a responsibility to protect them 
from violence and harm. No sentence, no matter how terrible the 
crime, includes being threatened, beaten, or raped while in the 
custody of the Government.
    Sadly, many prisons fail in their responsibility to protect 
their inmates and staff from violence. At the Commission's 
hearings around the country, we heard many accounts of violence 
and abuse behind bars. These were reports not just from 
prisoners and their families, but from line officers and 
correctional administrators as well. But, on the other hand, we 
also heard many accounts of many facilities where prisoners and 
staff are healthy and safe. Plainly, there are practices and 
policies that make for safer prisons.
    The clear consensus among the experts is that to prevent 
violence in prison we must: reduce crowding; increase access to 
meaningful programs and activities; encourage a climate of 
mutual respect between inmates and staff; increase the 
transparency of the institutions by increasing accessibility to 
outside agencies and volunteers; identify at-risk prisoners and 
predators, and classify them accordingly, and separate them; 
make better use of surveillance technology; and strengthen 
family relationships by placing inmates close to their 
families, encouraging family visits, and lowering the cost of 
phone calls.
    How do we hold administrators of institutions plagued by 
violence accountable for adopting the reforms that are proven 
to make prisons so much safer? One important way Congress can 
help is to develop a uniform system for collecting data on 
violence in prison. Currently, there is no way to track the 
number of assaults by prisoners on other prisoners, by 
prisoners against staff, or the use of excessive force by 
corrections officers. This prevents us from comparing levels of 
violence in different facilities and systems around the 
country, or tracking trends over time. For instance, in the 
year 2000, one State with 36,000 prisoners reported just 17 
assaults. Three States reported zero assaults among prisoners 
statewide. Zero. Now, that just is not credible. And we are 
confronting this same issue of the lack of credible statistics 
on the Prison Rape Elimination Commission.
    Without accurate numbers we cannot hold prison 
administrators accountable for the safety of their staff or 
inmates. We end up fighting over anecdotes--pitting good 
stories against bad ones. More importantly, it means that 
successful corrections leaders are not recognized and rewarded, 
and that dangerous institutions do not get the attention and 
the reform that they so desperately need.
    Corrections administrators need accurate information to 
monitor safety, and the public needs it to hold them 
accountable.
    Thank you.
    [The prepared statement of Mr. Nolan appears as a 
submission for the record.]
    Chairman Coburn. Thank you, Mr. Nolan.
    Mr. Maynard, on behalf of Senator Grassley, he had every 
intention of being here and had a schedule change at the last 
moment, so I am offering you his regrets for not being here, 
and you are recognized for 5 minutes.

STATEMENT OF GARY D. MAYNARD, COMMISSIONER, AND DIRECTOR, IOWA 
   DEPARTMENT OF CORRECTIONS, AND PRESIDENT-ELECT, AMERICAN 
           CORRECTIONAL ASSOCIATION, DES MOINES, IOWA

    Mr. Maynard. Thank you, Mr. Chairman, Senator Durbin.
    I am the Director of the Iowa Department of Corrections and 
President-Elect of the American Correctional Association, but I 
am not speaking for those organizations today. I am here 
speaking as a member of this Commission. I want to discuss the 
medical and mental health issues in our prisons and jails and 
bring to your attention the reality I see in facilities across 
the country. We know how to secure prisoners behind walls, but 
the physical and mental health problems they bring with them 
are not so easily secured. These health problems quickly become 
problems for corrections officers, for other prisoners, and for 
surrounding communities. And the burden of solving these 
problems cannot rest solely with State and local correctional 
agencies.
    Prisoners are probably the least healthy group of 
Americans. They are ill with some of the most destructive 
diseases--ranging from diabetes to HIV, hepatitis C, and 
tuberculosis--and at far higher rates than other Americans. 
Every year, as many as a million and a half people are released 
from jail and prison to our communities carrying a potentially 
life-threatening infectious disease. In California, a Federal 
judge recently appointed a receiver to run the prison medical 
system after learning that every 6 or 7 days a prisoner dies 
unnecessarily from inadequate medical care.
    And correctional facilities are filled with people who have 
a mental illness. At least 16 percent, or 350,000, and maybe 
twice that number, are mentally ill. You have heard it said 
many times over because it is true: prisons and jails have 
become America's de facto psychiatric hospitals. I am not here 
to tell you that the mentally ill prisoners should not be held 
accountable. I am just saying that prisons and jails--try as we 
might--are not good places to help people cope with or recover 
from serious mental illness. In facilities around the country 
today, we are struggling to deal effectively with mentally ill 
prisoners. And we are releasing mentally ill prisoners without 
the necessary supply of medications and without any clear 
pathway to treatment. That threatens public safety and almost 
guarantees that those individuals will fail, commit new crimes, 
and reincarcerated.
    These are difficult problems, but they are not without 
solutions. We need real partnerships between correctional 
agencies, departments of public health, and health care 
providers working in the community. The health care challenges 
in prisons and jails are public health problems, and they 
demand public health solutions. We have come to a point where 
the doctors in some prisons and jails practice under licenses 
that restrict their work to correctional settings. They would 
not be permitted to provide care to you or me. Congress should 
find ways to encourage public health partnerships because they 
have been demonstrated to work and help correctional facilities 
hire only fully qualified medical staff.
    When we must incarcerate someone who is mentally ill, we 
need properly trained and caring staff to treat the person's 
illness. And we must avoid isolating mentally ill prisoners in 
high-security segregation units where their mental state 
deteriorates and their suffering increases.
    Money alone will not guarantee these crucial reforms, but 
without adequate funding for correctional health care, we have 
no hope for real change. Some correctional systems ration 
services by requiring prisoners to pay to see a nurse or 
doctor. Correctional systems that require medical co- pays by 
prisoners risk the spread of disease and the potentially high 
cost of delaying necessary care in exchange for a small cost 
savings. The Federal Government, along with State and local 
governments, should end the use of medical co-pays in 
correctional facilities. It will take tremendous political will 
to make that change, and the shift is much more likely to occur 
if we can also increase the financial resources available to 
States to pay for medical care in prisons and jails.
    One of the most important contributions Congress can make 
to improve the public health of this country is by changing 
Federal law so that correctional health care providers--just 
like every other public health care provider--can be reimbursed 
by Medicaid and Medicare. If I ran a public hospital system 
rather than a correctional health system, my facilities would 
be entitled to Federal reimbursement for the medical and mental 
health care we provide to persons who are low-income or 
elderly. The public health depends on seeing prisons and jails 
as part of the public health system. Medicaid reimbursement is 
a key part of that system. We have a responsibility to provide 
decent health care to people who are not free to seek medical 
care on their own.
    In conclusion, in over 30 years of working in corrections, 
this opportunity to participate with the Commission on Safety 
and Abuse in America's Prisons has been the best opportunity 
for others and me in my profession to have a public voice, and 
we thank you.
    [The prepared statement of Mr. Maynard appears as a 
submission for the record.]
    Chairman Coburn. Thank you, Mr. Maynard.
    Judge Gibbons, welcome. I have seen a lot of you lately at 
different hearings. Welcome. Please share with us, if you 
would.

STATEMENT OF HON. JOHN J. GIBBONS, COMMISSION CO- CHAIRMAN, AND 
    FORMER CHIEF JUDGE, U.S. COURT OF APPEALS FOR THE THIRD 
                  CIRCUIT, NEWARK, NEW JERSEY

    Judge Gibbons. Chairman Coburn and Senator Durbin, I would 
like to--
    Chairman Coburn. Turn your mike on.
    Judge Gibbons. I would like to first apologize for my 
health problem. I am coughing. Is it on?
    Chairman Coburn. Now it is. Thank you.
    Judge Gibbons. I would like to reiterate what General 
Katzenbach said at the outset of this hearing: ensuring safe 
and humane and productive prisons and jails is not, and must 
not be, a partisan matter.
    Witness after witness before our Commission spoke of the 
closed nature of prisons and jails and the danger to the health 
and safety of all of us when there is insufficient oversight. A 
former prison warden told us: ``When we are not held 
accountable, the culture inside the prison becomes a place that 
is so foreign to the culture of the real world that we develop 
our own way of doing things.'' Our jails and prisons require 
the sort of external oversight systems that we demand for every 
important public institution, be it our public hospitals, our 
public schools, or our publicly traded corporations.
    Too few U.S. correctional systems are monitored by an 
independent Government body with enough authority and funding 
to regularly inspect conditions of confinement and to report 
findings to lawmakers and the public. Now, the Federal 
Government has an excellent model. The Office of Inspector 
General within the Department of Justice inspects Federal 
correctional facilities and answers to the Attorney General and 
Congress, rather than to the Bureau of Prisons. The office does 
an admirable job in maintaining its independence, and everyone, 
from the Bureau of Prisons to the public, benefits as a result. 
Congress, exercising the authority conferred on it by the 14th 
Amendment, should actively support a similarly independent and 
strong authority in every State.
    The Federal courts have played a historic role in watching 
over America's prisons and jails, shedding light on and 
remedying many of the most dangerous conditions and abuses. 
Indeed, we heard from a number of corrections professionals 
that they welcome--and sometimes quietly invite--lawsuits: they 
are often the only way to shake free the resources needed to 
make prisons safe and effective. The courts' role in prison 
oversight should in no way be impaired.
    The Department of Justice's activity in overseeing 
correctional facilities, through civil rights investigations 
and litigation, has diminished significantly in recent years. 
In fiscal years 2003 and 2004 combined, the Department of 
Justice's Special Litigation Section initiated only six 
investigations and filed only one civil case in Federal court 
addressing conditions in prisons and jails. This diminished 
activity is not the result of diminution of the problems in our 
penal institutions.
    The Prison Litigation Reform Act of 1996 brought down by 
nearly half the number of Federal cases by prisoners alleging 
constitutional violations. Now, in part, that was the Prison 
Litigation Reform Act goal--to reduce what were deemed to be 
frivolous lawsuits. But the PLRA has proven to be a crude 
weapon: meritorious lawsuits are suppressed at a greater rate 
than non-meritorious ones. The Commission recommends that the 
PLRA be amended to ensure that those individuals who suffer 
some of the worst abuses like rape, medical neglect, and 
physical violence have a meaningful way to achieve 
accountability.
    First, Congress should eliminate the requirement in the 
statute which bars the courthouse to prisoners, such as victims 
of sexual assault, unless they can prove a physical injury.
    Second, Congress must eliminate provisions that discourage 
prisoners from going to court and from having lawyers when they 
do go to court, such as the filing fee for indigent prisoners 
and the restrictions on attorneys' fees.
    Third, Congress should remove provisions that discourage 
consent decrees, such as the requirement that correctional 
agencies concede liability as a prerequisite to a settlement.
    And, finally, Congress should relax the ``exhaustion 
rule,'' which requires prisoners to fully exhaust all 
administrative processes, regardless of whether those processes 
are actually meaningful. As some courts have interpreted it, 
the PLRA bars the courthouse forever when a prisoner misses a 
single administrative deadline.
    We must hold out a genuine hope for humane treatment in our 
prisons and jails and be willing to let courts and other 
institutions shed light on how we treat the millions of people 
we incarcerate and the hundreds of thousands who work inside 
the corrections institutions. The Commission on Safety and 
Abuse and the Vera Institute look forward to an ongoing dialog 
on these issues with Members of the United States Congress.
    Thank you.
    [The prepared statement of Judge Gibbons appears as a 
submission for the record.]
    Chairman Coburn. I thank each of you for your input. I have 
been through the report and found it very interesting. I am 
going to ask each of you to--I see this divided into three 
areas. There is a Federal responsibility, there are certainly 
State responsibilities, and then there is the organizational 
responsibilities of the institutions that certify and evaluate 
prison practices.
    Could each of you go to each of those three areas? What is 
the No. 1 thing you see that the Federal Government ought to be 
active in? You have pretty well outlined what you think, Judge 
Gibbons, but Federal, then State, and then associational. In 
other words, as we start to look at this, what is the most 
important? I think both Senator Durbin and I have a keen 
interest in seeing some changes take place. But as you see it, 
General Katzenbach, what is the No. 1 priority that should be 
there for Federal? What is the No. 1 priority for State? And 
what is the No. 1 priority for the associations?
    Mr. Katzenbach. Thank you, Mr. Chairman, for such a simple 
question.
    [Laughter.]
    Chairman Coburn. I am trying to make this easy. I am a 
doctor.
    Mr. Katzenbach. I think as far as the Federal Government is 
concerned, I think the No. 1 priority in my view would be the 
modeling that it can do and the help that it can serve in 
assisting those people in the States that really want to run a 
better prison. And you have that in the academy, which is like 
the FBI Academy, and I think it needs more help on that. And I 
think that would be a major part, and the other part I think is 
also what it can do as far as health is concerned, which is 
such a big problem and a very expensive problem. And I 
recognize the difficulties of that.
    As far as the States are concerned, I think the single most 
important problem is getting people who are willing to try to 
change the culture within those prisons, and I think that 
really requires an effective oversight system. Now, it may be 
that the Federal Government can help on oversight as well, but 
I think the States should be creating effective oversight 
because that opens the doors and it gives--you know, keeping it 
secret, keeping it quiet only helps those who are not doing 
anything good, who want to keep what is going on out of the 
public eye. I think the good people can take advantage of 
oversight, and I think that is the most important thing from 
the State's point of view.
    I have forgotten what your third one was, frankly.
    Chairman Coburn. It was the association, American 
Correctional--
    Mr. Katzenbach. Well, I think they have done some very good 
jobs in terms of establishing standards. The difficulty is that 
there are more words in it than there is reality, and that is, 
again, an oversight question. It is a question of putting--they 
have done tremendous work under tremendous difficult 
circumstances, and it is very valuable work. And I think it is 
up to the States and to private groups as well to try to make 
that much more of a reality than I think it presently is in 
terms of not very many prisons are, in fact, approved, 
certified by them. And that would be a big help, to have more 
of those people, if you really had a good system for inspecting 
and for measuring. That is about as good as I can do.
    Chairman Coburn. That is very good. Thank you.
    Pat Nolan, please.
    Mr. Nolan. Yes, Senator, I think at the Federal level I 
think uniform standards, reporting standards of statistics is 
just crucial. There just are at the present time a patchwork of 
statistics, and it ends up, you know, with us fighting over 
anecdotes. So I think having that baseline so you can compare.
    I also think just the bully pulpit that you folks have, the 
opening statements of both of you, if we could just try to get 
the public to realize this is all of our problem, it is not 
just an in-prison problem--Senator Durbin's statement about the 
trash. Frankly, as a legislator, I frankly thought, Sent them 
to prison, we can forget about them. And that was a big mistake 
that I made. These people are coming out. And also, as a 
religious person, our brothers and sisters, we have to care 
about them. They have lives. They are children of God, too. So 
I think alerting the community to what is at risk, you can 
play--like holding this hearing is a tremendous step forward.
    As far as the States go, I absolutely believe that 
oversight and changing the culture to one of respect and caring 
about the future. And, you know, the State of California does 
not have--you know, the ACA has terrific standards. The State 
of California just ignores them. In fact, the ACA meeting was 
picketed by the guards' union in California because they 
advocated standards in California. That is just, you know, my 
former home State, but there needs to be some move on the State 
level to say we will have our prisons pass muster by these 
standards the ACA has developed so carefully.
    And you asked for one, but I would add another, and that is 
the funding of medical and mental health. The pot is empty for 
them, and their lives are totally dependent on the prison 
authorities for their care. You do not have the option--
    Chairman Coburn. Well, let me go to my State. My state has 
$1 billion that they are trying to figure out how to spend 
right now. Why is that not a State responsibility in a State 
prison?
    Mr. Nolan. Oh, well, I agree, except that as Mr. Maynard 
pointed out, all the public institutions--the poor and the 
elderly are entitled to Medicaid reimbursement except if they 
are in prison.
    Chairman Coburn. Well, they are also entitled to vote 
except if they are in prison. So the question I have for you 
is: Is that a Federal responsibility to supply health care to 
States when the States are running surpluses and could, in 
fact, take care of the health of their prisoners?
    Mr. Nolan. You know, first of all, the first responsibility 
is on the State, but the first responsibility is on the State 
not to send mentally ill people to prison. You know, we have 
incarcerated so many of the people that are mentally ill, and 
they are crying--you know, it becomes a slippery slope. They 
are arrested for worshipping the newspaper rack in front of 
Denny's, and literally in L.A. County they call it ``mercy 
bookings.'' Mercifully, they take them off the street, but the 
place they take them is jail because there are no acute care 
beds for them and the L.A. County Hospital will not accept 
them. So they end up in jail. The L.A. Sheriff runs the largest 
mental health facility in the world. And the deputies don't 
want--these people are sick. They are not criminals. And yet 
then they have a record, and it just escalates from there.
    So the State could not save money, but the money would be 
better spent treating them in acute mental health beds, get 
them stabilized on their meds, not in prison making criminals 
out of them, and, frankly, putting them at risk because they 
are abused. I saw it. I saw the abuse of these mentally ill 
people by the other prisoners. They are taken advantage of, and 
it makes a correctional administrator's job virtually 
impossible to be dealing with criminals, but also mentally ill 
people.
    Chairman Coburn. Mr. Maynard?
    Mr. Maynard. Mr. Chairman, I think as we have been talking, 
the medical and the mental health issues are areas that States 
are not able to deal with. I think there needs to be some 
Federal support into the medical costs. The medical costs are 
rising tremendously, as are the pharmaceutical costs. And when 
those costs rise, they have to be met because of the law and 
just for doing the right thing, and money comes out of 
operations, which reduces staffing and so on. I think the 
Bureau of Justice Statistics, funding them to do more data 
collection, more research. The National Institute of 
Corrections, funding them, they do excellent training for 
corrections. They have for years. They are limited funding. I 
think that would be most helpful.
    As far as States, I am not sure other than what States are 
doing now. I think if they had overall guidance, I think they 
would probably do a better job.
    Organizational responsibilities, I think the accreditation 
process--I have been involved in accreditation of corrections 
for over 25 years, and I have seen the organization as a whole 
across the country improve because of the work of people to try 
to meet certain standards. And without those standards, they do 
not. We have about less than half of the prisons in the country 
are accredited. That was not the case 15 years ago. And that 
has all been a voluntary movement on the part of corrections 
professionals. I think we should really support that effort 
that people are doing voluntarily.
    Chairman Coburn. Judge Gibbons, you pretty well summarized 
the Federal side of that. Anything to say about the State side 
or the associational side?
    Judge Gibbons. Well, one thing I can say about the States 
is that they will react to Federal prodding.
    Chairman Coburn. I already got your message.
    [Laughter.]
    Judge Gibbons. If the Federal Government establishes 
standards, the States will have to comply with them, whether at 
State expense or otherwise. One particular problem that jumps 
out at me when I go to these prison facilities--it is 
essentially a State problem--is that they are dealing with an 
aging population and that the cost of health care particularly 
for that aging population is becoming a staggering burden. 
There are institutions where internally they are training 
prisoners to run hospice centers for the dying because the 
population is so old.
    Now, Senator, you said, well, isn't that a State 
responsibility? Why should Medicaid take care of some of those 
expenses? Well, you could say that about the whole Medicaid 
program. What is the justification for carving out of a Federal 
health program this very vulnerable aging population that has 
expensive medical care? Or else they are just going to die.
    But I think what my essential message is, Federal standards 
for the operation of correctional facilities will inevitably 
improve the situation.
    Chairman Coburn. Thank you. I want to give plenty of time 
to Senator Durbin. I just want to come back and talk on that 
issue a little bit on recidivism rates, because that is the key 
to a lot of this cost.
    Senator Durbin. Let me just say that I have been in the 
Senate for 10 years, on this Committee for 8 years. To my 
memory, this is the second time we have ever had a hearing on 
corrections. On the Senate Judiciary Committee, the second 
time. We do not want to talk about this. It goes back to Mr. 
Nolan's point and the one I made earlier. Take these dangerous 
people away and do not tell us anything about it. Keep the 
costs low and don't talk about it, please. You know, they are 
paying a price, and they do not deserve a second thought.
    Yet the reports suggest 95 percent are coming out, will be 
released. I do not know what current recidivism rates are. Does 
anybody have a current number?
    Mr. Nolan. It is about 66 percent stay there for 20 years.
    Senator Durbin. So two out of three of those released are 
headed back. So the obvious question that I raised in my 
opening statement is: Is there an intervention with that 
incarceration that can stop the second crime from being 
committed, the second victim from being created? And it strikes 
me--and I thought about this when I worked at the State level 
and the Federal level. One of the things going in, there are 
just a myriad of problems that have created the criminal mind. 
One of them is lack of self-esteem. And what I read in your 
report, not at length but certainly good reference, is that the 
educational courses in prisons have been diminished 
dramatically. It used to be that you would go to prison and 
pick up a skill or a GED, and I take it from what you say here 
that that is not the case very often anymore. And so they are 
emerging from prison with few skills, if any.
    I might just give a salute to Congressman Danny Davis of 
Illinois, who has focused more on this issue than any 
Congressman I know, because the West Side of Chicago, because 
of all the great faith-based operations there, has many more 
returning incarcerated people than other places. But the point 
he has found and I have found is that, absent some new skill or 
education, they return to the streets in the same or worsened 
condition. They have sharpened their criminal skills, but no 
other skills, and their criminal connections.
    Second, you have people with mental illness, and, Mr. 
Maynard, you made the point that my Director of Corrections 
made in Illinois, that he had no idea that he was getting into 
the business of running a mental health institution, which he 
is. And the numbers, from 16 to 54 percent, suggest the 
magnitude of this issue and how inhumane it is for us to take 
people who are ill and to put them in this vulnerable 
predicament. We would no more think of taking an innocent 
person suffering from a disease and abandoning them on an 
island for a long period of time to fend for themselves than we 
would--than we should in this situation. And so that lack of 
mental counseling, mental health counseling and help really 
makes a significant difference. And then the physical illnesses 
and diseases, whether they were sick going into the prison, a 
million and a half come out each year sick, if I heard the 
testimony correctly, with serious and communicable diseases.
    And now let's move to the issue of addiction. If you are an 
addictive person with an addictive mind and an addictive 
temperament going in a prison, what is the likelihood that you 
will be cured of that during your incarceration? Slim to none, 
I think, and sadly there still are narcotics coming into prison 
to deal with this.
    So now it comes back in our direction. Federal and State 
legislative leaders, as well as executive leaders, are we 
prepared to face the public criticism of putting resources into 
prisons that we have just described-- education, mental 
counseling, health care, dealing with addictions, saying to the 
public, if we don't spend the money here, you may be the next 
victim when they are released?
    Now, Mr. Nolan, you have been in this business. This is a 
tough political task. There were times not too long ago when we 
were debating whether or not to even give exercise equipment to 
prisoners because it was ``a reward,'' or let them watch 
television, another ``reward.'' So let me ask you: Come to our 
world for a moment here and talk about this. Mr. Maynard?
    Mr. Maynard. Senator Durbin, the Federal Government has 
supported the reentry projects throughout the country, and they 
are going to prove to be effective in helping people stay out 
of prison when they get out, and that is going to prove to be 
cost-effective for the system. There is no question about it. 
And there are programs, in addition to education, but drug 
treatment programs, we have found that--we first thought that 
meth treatment was not going to be effective, and we were all 
concerned about it. But we have pretty well proven that there 
is effective treatment for meth addiction.
    Anger management, some of the domestic abuse issues, people 
who are in treatment are less likely to reoffend in those 
cases.
    Senator Durbin. How common is that in the correctional 
setting?
    Mr. Maynard. We have, of course, the drug treatment; we 
have sex offender treatment; we have the--
    Senator Durbin. Are you talking about one State or 
nationwide?
    Mr. Maynard. I am talking about one State right now, but I 
was just going to relate to--I think the majority of the State 
systems have those kinds of programs, but they continually 
fight to--when budget cuts come, education, unfortunately, is 
something I have seen that typically gets cut, chaplains and 
education and training.
    Senator Durbin. Isn't that the No. 1 indicator on 
recidivism--education?
    Mr. Maynard. It is a strong one. People that come to prison 
that could not read and write and learn to read and write in 
prison, they are, according to the research, three times less 
likely to come back to prison. And the same way with GED, if 
they do not have a GED, and they get it--it is the self-esteem 
you talked about--they are less likely to come back to prison. 
So those programs are cost-effective, and today, one thing that 
is encouraging is that most States are starting to look at 
evidence-based practices, where we--in fact, in Iowa, my budget 
is predicated on being able to prove that if we are given these 
resources, we will cause a reduction in recidivism, we will 
cause these people to do better and not come back. So a lot of 
States are starting to move in that direction, and I think that 
is the kind of data that you can take to constituents and say 
here is why we do this, it makes sense.
    Senator Durbin. Good. The results orientation.
    Mr. Maynard. Yes, sir.
    Senator Durbin. I think that is good.
    Can I address another issue which you touched on in this 
report but I want to ask for a little amplification? I bring 
this up at hearings from time to time. These statistics are 
old, but I do not think they are out of date. I think they are 
still largely true, and it is about drug crimes and the people 
who commit them and the people who are incarcerated because of 
them.
    African Americans comprise about 12 percent of America's 
population, but about a third of the drug arrests and about 65 
percent of the drug incarcerations are African Americans. There 
is clearly an injustice built into those statistics.
    You in your report discuss diversity in terms of 
correctional officers. I am glad that you speak to the issue of 
correctional officers. I know a lot of them. It is not an easy 
job, and my hat is off to them because they do not get paid 
well, as you also note, and they risk their lives to keep peace 
in these correctional settings.
    But address for a moment this diversity issue as to whether 
or not the correctional officers reflect the diversity of the 
people that they are watching and whether there is an empathy 
there that does not exist because of it, because of this 
disconnect.
    Mr. Maynard. I could just say that--
    Senator Durbin. I am sorry Mr. Morial is not here or Hilary 
Shelton, who I know was also part of your Commission. But if 
you would--
    Mr. Maynard. I think it varies a little bit from State to 
State. I know my experience has been we typically have had more 
African-Americans in prison than an equivalent ratio of staff. 
Historically, prisons have been built in remote places, in 
rural areas, and typically been more white, a rural atmosphere, 
and difficult to recruit minorities to work in prisons from 
those areas. That has been the history.
    Senator Durbin. Did you find any correlation to the conduct 
at a prison relative to good time, as to whether or not 
prisoners were rewarded with good time for a certain time 
served? I know that the State transfer used to be much closer 
to one-to-one in Illinois. I don't know what it is today. But 
the Federal is much different. It is 1 day for 1 month, I 
believe.
    Is there any correlation between the conduct of prisoners 
and the good time that allows them to reduce their ultimate 
sentence?
    Mr. Maynard. I would think so. Most States have systems 
that give credits for work or credits for program completion. 
They give time off a sentence, either work time or good time.
    Senator Durbin. But you would not know nationwide or 
through the correctional system whether that has an impact on 
what prison life is like?
    Mr. Maynard. I think so. Yes, sir. I think it would have an 
impact on encouraging positive behavior, yes, sir.
    Senator Durbin. Mr. Nolan, you talked about vulnerable 
people in prisons, and you mentioned the mentally ill. Are 
there other vulnerable populations in prisons?
    Mr. Nolan. Yes. In fact, the Prison Rape Commission has had 
on sexual violence quite a bit of testimony. People of slight 
builds, people with effeminate characteristics, people that are 
homosexual are viewed as targets.
    Senator Durbin. Does age have anything to do with this?
    Mr. Nolan. Oh, yes, definitely, and the trend to housing 
juveniles in adult facilities is troubling. They are by nature 
vulnerable, and so we think it is important that on entrance 
those factors be looked into.
    In fact, I was meeting with the management team of the Los 
Angeles County jail system. They just had the riots and several 
deaths there. And I said, you know, ``You really need to 
classify these.'' And the head of operations said, ``Oh, we 
do.'' And then the head of training said, ``Well, we only 
classify them as a danger to us, not to each other.'' You know, 
it was a revelation that even with them they had not even 
thought about that factor.
    If I could answer a previous one, as politicians, one of 
the things that is important that we emphasize is these things 
are not for the prisoners. This is for safer communities and 
fewer victims, as you said. That is the bottom line, and we 
need to hold everybody accountable. I learned this from one of 
my colleagues, a liberal in the legislature, John Vasconsellos, 
who changed the name of the Committee on Criminal Justice to 
Committee on Public Safety. And I said, ``John, that is typical 
liberal nonsense,'' you know. And he said, ``No, no, Pat.'' He 
said, ``If we call it the Committee on Criminal Justice, the 
members and staff will view it as our job as building a 
stronger criminal justice system.'' He said, ``That system does 
not exist for stronger prisons. It exists to keep the public 
safer, and we have to hold it accountable for that. And if we 
change the language of discussion to public safety, how do we 
reduce the risk of harm to people?''
    So I would say, as far as your question about good time, 
there is no one-on-one correlation of that. It is really a 
changed life. Have we changed their value system, their 
structure? Have we changed them but for a very self- centered 
focus, to realizing that there is something more important than 
them, that the community and we believe God, you know, is more 
important. And if you change their focus of their life so it is 
not just focused on ``gimme, gimme, gimme,'' then a lot of 
other things fall into place.
    I think there are several factors, and I need to make 
clear: recidivism, the 66 percent is rearrested within 3 years 
of release. The reincarceration rate is 52 percent, so that is 
a distinction.
    Senator Durbin. Still, that is high.
    Mr. Nolan. So it is still high, but it is the rearrest that 
is 66 percent. But if we have meaningful relationships with 
healthy, moral people--Dr. Martin Luther King, Jr., said, ``To 
change someone, you must first love them, and they must know 
that you love them.'' And programs cannot love people. People 
can. So the more people we have actually making a difference, 
the greater the density of loving moral people we pack around 
them, the better the chance they will make it.
    The second thing is job preparation, and I would commend to 
you the chief probation officer in St. Louis has set up a 
fabulous job, absolutely sensational. I could not design a 
better job on this, and he got the permission of the chief 
judge there, and the unemployment rate of the people under his 
jurisdiction is lower than the unemployment rate in St. Louis 
itself. That is working, it is changing lives, and it involves 
the community.
    The third thing is a safe place to live. You know, people 
do not think about it, but, you know, when you are in prison, 
you have people guarding you. There is a violence there, but 
when you are out on the street, you know, where do you sleep at 
night? If you are sleeping under a bridge or in a park, you are 
vulnerable. And so having a safe place where they can live is 
important. Yet most neighborhoods do not want ex-offenders 
there, so we need to deal with that.
    And the fourth thing is treating addictions, and, 
unfortunately, a lot of systems play ``okey-doke'' with that. I 
was at the Virginia Reentry Committee meeting, task force 
meeting, and I said that less than 10 percent of inmates get 
treatment for addiction before they are released and that is a 
reality. And so one of the directors of Virginia said, ``Well, 
we have drug treatment in every prison.'' Well, he is begging 
the question. Yes, they have drug treatment, but only a tiny 
fraction of the prisoners get it that need it. So having it in 
prisons is different than making sure everybody with an 
addictive personality has the treatment to help them, to teach 
them the coping mechanisms to deal with that aspect of their 
life.
    And then one other thing, so many of the programs--for the 
10 percent that do get treatment, after they are released, they 
have to wait in the queue to get community treatment, 6 to 8 
months before they get into a community treatment. Well, if you 
have that discontinuity, you lose all the benefit.
    So I would say those are the major things, but the key 
thing is relationship more than programs. We focus on programs. 
But it is linking them with good, moral people that are making 
it in life and that care about them.
    Senator Durbin. Nothing works better than to have someone 
who cares.
    Judge, a last question the Chairman has been kind enough to 
allow me to ask. Talking about loving people, let's talk about 
lawyers.
    [Laughter.]
    Chairman Coburn. I believe that doctors think they are the 
least lovable.
    Senator Durbin. I know.
    You appealed to our sense of fairness and justice, saying 
that those incarcerated should be able to have a day in court 
or a hearing or a review if they are being mistreated. Now, we 
also know that many of these prisoners have access to great law 
libraries and maybe computers these days--I am not sure--and 
file extensive briefs to the court about all sorts of things, 
some of which are meritorious, and some are not. All of them 
are not Mr. Gideon of Gideon v. Wainwright, and many of them 
tax the system.
    Is there a way, is there a screen or a method to give 
justice where there is none today and yet not open the system 
up to the idle filings of those who are seeking attention 
beyond what they deserve?
    Judge Gibbons. Well, there are ways. They have been 
operating for many, many years. We really did not need the PLRA 
to screen out frivolous cases. Federal judges were doing it 
regularly without the inhibitions that have now been placed in 
the path of often very meritorious prisoner cases. The problem 
with Federal judges getting rid of frivolous litigation to me 
has always been greatly exaggerated.
    Diverting from the subject matter of this hearing, now the 
big complaint is that Federal resources are being frivolously 
diverted to handling immigration appeals. And if the solution 
to the immigration crisis is to impose on asylum seekers these 
bars that have been imposed on prisoner litigation, that is 
going to be counterproductive.
    Chairman Coburn. I want to make sure everybody--I am very 
proud of what is, as a matter of fact, a lot of what you 
started, Mr. Maynard, in Oklahoma, and I want to read into the 
record some positive things that are happening in Oklahoma, 
because I think they lend credence to what this report says. 
Oklahoma is going to open an acute-care, 262- bed facility for 
our elderly prisoners and those with chronic and debilitating 
diseases. We have the Bill Johnson Correctional Center, which 
is a premier drug treatment center. That is all it does, 
prisoners with drug treatment.
    We have over 10,000 volunteers working in our prisons in 
Oklahoma, mentoring and assisting. And the history of Oklahoma 
is we were under court supervision at one time, and through 
great leadership and attention to it, that has changed.
    In Oklahoma, we have four areas of oversight, which I think 
are interesting. The Office of State Finance oversights it., 
the Fire Marshal oversights it, the Department of Health 
oversights it, and the Attorney General oversights it. So we 
have four separate oversights, as well as the legislature in 
terms of doing that.
    So I think the results of Federal intervention have borne 
some great fruit, and Oklahoma is going to do better, and we 
know that. We have a tremendous problem in terms of paying our 
staff appropriately and recognizing those needs.
    Judge Gibbons, you mentioned the meritorious versus the 
non-meritorious, the data on that. Could you reference that to 
my Committee staff if we send you a letter on that in terms of 
the cases and the filings? You said that the meritorious have 
been blocked and the non-meritorious have not, and I would just 
like to have that information as we look at the PRLA.
    Judge Gibbons. We will respond.
    Chairman Coburn. Thank you.
    One of the things that was cited--I served as a jail doctor 
for 4 years as the Muskogee County Jail, and there was no 
question that some prisoners had significant needs. But how do 
you balance--if you do not even have a little, small co-pay, 
what we found is they did not want--all they had to do was 
complain of an illness, and they got out of the work detail 
that day. And, of course, when I was there seeing them, they 
were not ill. They were ill from work. So there has to be some 
balance in terms of your recommendations of how we do not get a 
secondary motivation for illness to display a requirement in 
that. And I know that you all have thought of that, and we will 
send you all these questions. We would love to have your 
individual responses on how we balance that so that we do not 
influence it inappropriately.
    There is a good balance that should not require a 
significant cost but still cost something, which is the same 
problem we have in our own health care system. We have 
tremendous overutilization in a lot of areas because there is 
not an appropriate skin in the game. So there has got to be an 
answer to that, and I will not spend any more time on that.
    I would just relate that we will be sending several sets of 
questions to each of you, if you would try to respond to those 
within 2 to 3 weeks.
    I would commit to you, I am interested in us making a 
difference, one, in terms of treatment of mental health. As a 
physician, one out of every three patients I see as a primary 
care doctor, it is a mental health issue. One in three.
    No. 2, drug treatment we know works. We have to incentivize 
that. We have to pray for the rewards of that.
    No. 3, health care. We have got to--we do not have to just 
fix health care problems in our prison. We have to fix health 
care in America. We cannot afford what we are doing now. We are 
going to spend $2.3 trillion this year. We cannot afford it. 
And one out of three dollars does not go to help anybody get 
well. So we have got to work on that, and I think your 
suggestions have merit, and we need to look at how we do that.
    Then, finally, how do we incentivize to raise the level of 
compensation and professionalism within our prisons so that we 
meet the requirements that put forward something similar to 
what Pat Nolan has--how do you be a supervisor in a prison and 
love your prisoners? I mean, that is where we really want to 
be, because if that is felt and seen, it is modeled, and it 
changes lives.
    Senator Durbin, anything else?
    Senator Durbin. No. Thank you.
    Chairman Coburn. I want to thank each of you for being 
here. We will discuss among ourselves where we go with followup 
on this, and I appreciate your time and your testimony. Thank 
you very much. The record will be kept open for additional 
statements for 1 week.
    The Committee is adjourned.
    [Whereupon, at 4:15 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T0255.001

[GRAPHIC] [TIFF OMITTED] T0255.002

[GRAPHIC] [TIFF OMITTED] T0255.003

[GRAPHIC] [TIFF OMITTED] T0255.004

[GRAPHIC] [TIFF OMITTED] T0255.005

[GRAPHIC] [TIFF OMITTED] T0255.006

[GRAPHIC] [TIFF OMITTED] T0255.007

[GRAPHIC] [TIFF OMITTED] T0255.008

[GRAPHIC] [TIFF OMITTED] T0255.009

[GRAPHIC] [TIFF OMITTED] T0255.010

[GRAPHIC] [TIFF OMITTED] T0255.011

[GRAPHIC] [TIFF OMITTED] T0255.012

[GRAPHIC] [TIFF OMITTED] T0255.013

[GRAPHIC] [TIFF OMITTED] T0255.014

[GRAPHIC] [TIFF OMITTED] T0255.015

[GRAPHIC] [TIFF OMITTED] T0255.016

[GRAPHIC] [TIFF OMITTED] T0255.017

[GRAPHIC] [TIFF OMITTED] T0255.018

[GRAPHIC] [TIFF OMITTED] T0255.019

[GRAPHIC] [TIFF OMITTED] T0255.020

[GRAPHIC] [TIFF OMITTED] T0255.021

[GRAPHIC] [TIFF OMITTED] T0255.022

[GRAPHIC] [TIFF OMITTED] T0255.023

[GRAPHIC] [TIFF OMITTED] T0255.024

[GRAPHIC] [TIFF OMITTED] T0255.025

[GRAPHIC] [TIFF OMITTED] T0255.026

[GRAPHIC] [TIFF OMITTED] T0255.027

[GRAPHIC] [TIFF OMITTED] T0255.028

[GRAPHIC] [TIFF OMITTED] T0255.029

[GRAPHIC] [TIFF OMITTED] T0255.030

[GRAPHIC] [TIFF OMITTED] T0255.031

[GRAPHIC] [TIFF OMITTED] T0255.032

[GRAPHIC] [TIFF OMITTED] T0255.033

[GRAPHIC] [TIFF OMITTED] T0255.034

[GRAPHIC] [TIFF OMITTED] T0255.035

[GRAPHIC] [TIFF OMITTED] T0255.036

[GRAPHIC] [TIFF OMITTED] T0255.037

[GRAPHIC] [TIFF OMITTED] T0255.038

[GRAPHIC] [TIFF OMITTED] T0255.039

[GRAPHIC] [TIFF OMITTED] T0255.040

[GRAPHIC] [TIFF OMITTED] T0255.041

[GRAPHIC] [TIFF OMITTED] T0255.042

[GRAPHIC] [TIFF OMITTED] T0255.043

[GRAPHIC] [TIFF OMITTED] T0255.044

[GRAPHIC] [TIFF OMITTED] T0255.045

[GRAPHIC] [TIFF OMITTED] T0255.046

[GRAPHIC] [TIFF OMITTED] T0255.047

[GRAPHIC] [TIFF OMITTED] T0255.048

[GRAPHIC] [TIFF OMITTED] T0255.049

[GRAPHIC] [TIFF OMITTED] T0255.050

[GRAPHIC] [TIFF OMITTED] T0255.051

[GRAPHIC] [TIFF OMITTED] T0255.052

[GRAPHIC] [TIFF OMITTED] T0255.053

[GRAPHIC] [TIFF OMITTED] T0255.054

[GRAPHIC] [TIFF OMITTED] T0255.055

[GRAPHIC] [TIFF OMITTED] T0255.056

[GRAPHIC] [TIFF OMITTED] T0255.057

[GRAPHIC] [TIFF OMITTED] T0255.058

                                 <all>

</pre></body></html>
